OFFICE OF INSPECTOR GENERAL

AUDIT OF SELECTED
ACTIVITIES FROM
USAID/YEMEN’S BASIC
EDUCATION SUPPORT AND
TRAINING PROJECT


AUDIT REPORT NO. 6-279-11-005-P
February 28, 2011




CAIRO, EGYPT
Office of Inspector General


February 28, 2011

MEMORANDUM

TO:                  USAID/Yemen, Mission Director, Jeffrey Ashley

FROM:                Regional Inspector General/Cairo, Jacqueline Bell /s/

SUBJECT:             Audit of Selected Activities from USAID/Yemen’s Basic Education
                     Support and Training Project (Report Number 6-279-11-005-P)

This memorandum transmits our final report on the subject audit. In finalizing the report,
we considered your comments on the draft report and have included your responses in
their entirety at appendix II (attachments excluded).

The report includes 10 recommendations for corrective action. On the basis of
USAID/Yemen’s supporting documentation and planned action, we consider that final
action has been taken on two recommendations, management decision has been made
on four recommendations, and no management decision has been reached on the
remaining four recommendations. RIG/Cairo considers that final action has been taken
for recommendations 3 and 4. In addition, we consider that management decisions
have been reached on recommendations 7, 8, 9, and 10, and that management
decisions have not been reached on recommendations 1, 2, 5, and 6.

Management decisions will be recorded for recommendations 1, 2, 5, and 6 after
USAID/Yemen has developed a plan of action with a target date for implementing the
recommendation. Please provide the Audit Performance and Compliance Division in the
USAID Office of the Chief Financial Officer (M/CFO/APC) with the necessary
documentation to achieve final action for recommendations 1, 2, 5, 6, 7, 8, 9, and 10.

Thank you for the cooperation and courtesy extended to the audit team during this audit.




U.S. Agency for International Development
USAID Office Building
1A Nady El-Etisalat Street
Off El-Laselki Street
New Maadi
Cairo, Egypt
www.usaid.gov/oig
CONTENTS
Summary of Results ....................................................................................................... 1

Audit Findings ................................................................................................................. 7

     USAID/Yemen Did Not Ensure That
     Project Funding Was Authorized ................................................................................ 7

     USAID/Yemen Did Not Ensure That
     Property Transfers Were Appropriate ......................................................................... 8

     USAID/Yemen Did Not Obtain
     Approval for Subawards ............................................................................................ 10

     USAID/Yemen Did Not Ensure That
     Source Origin Requirements Were Met ................................................................... 11

     USAID/Yemen Did Not Review
     Project Documentation to Ensure
     Adequate Monitoring ................................................................................................. 12

     USAID/Yemen Did Not Ensure That
     Environmental Monitoring Was Conducted............................................................... 13

Evaluation of Management Comments ....................................................................... 15

Appendix I – Scope and Methodology ........................................................................ 16

Appendix II – Management Comments ....................................................................... 18

Appendix III – USAID/Yemen’s Basic Education Support and Training (BEST)
Project’s 2009 Annual Work Plan School Renovation Component Activities for
January to December 2009........................................................................................... 19

Appendix IV – USAID/Yemen’s BEST Project’s 2010 Annual Work Plan School
Renovation Component Activities as of September 30, 2010................................... 21

Appendix V – USAID/Yemen’s BEST Project Baseline Data for 2007-2008 ............. 23

Appendix VI – Detailed Map of Targeted School Locations for the BEST Project.. 24

Appendix VII – List of Acronyms ................................................................................. 25
SUMMARY OF RESULTS
USAID’s overarching strategic goal in Yemen has been to increase stability through
targeted interventions in highly vulnerable areas. Targeted, vulnerable communities are
those that are remote or marginalized and that have limited access to services and
opportunities. These situations create a climate that is susceptible to extremist
ideologies and in which people are prone to violence to resolve grievances.
USAID/Yemen’s stabilization strategy focuses on addressing the Yemeni people’s basic
needs and providing opportunities at local levels by improving access to basic services
such as education.

In its most recent country strategy, for 2010–2012, USAID/Yemen reported that Yemen’s
education services have been inadequate, resulting in an aggregate adult literacy rate of
50 percent—73 percent for men and only 35 percent for women. Constraints in access
to education services have resulted in low school completion rates by girls (especially in
rural areas), high grade repetition rates, and a lack of quality facilities and materials,
particularly in vulnerable communities. These communities include the governorates of
Hodeida, Rayma, and Amran, west of the capital of Sana’a.

A 2009 World Bank report noted that the gross enrollment rate for basic education in
Yemen for 2007–2008 was approximately 74 percent, with a large gap between boys
and girls at 83 and 64 percent, respectively. The report stated that a large group of
children remain out of school because of either nonenrollment or early dropout,
particularly in the more rural and “difficult-to-reach” governorates.

To improve educational services, USAID/Yemen awarded a 5-year, $20 million
associate cooperative agreement 1 to the Academy for Educational Development (AED)
to provide support for the Basic Education Support and Training (BEST) Project from
September 30, 2007, to December 31, 2012. Although USAID/Yemen planned the
project for 5 years, on June 22, 2010, the mission modified the project agreement to
reduce the award amount to approximately $17.4 million. Consequently, the mission
reduced the life of the project by 1 year, resulting in a revised project closing date of
December 31, 2011. As of September 30, 2010, USAID/Yemen had fully obligated
funds for the project and disbursed approximately $11.7 million. As stated in the
assistance agreement between USAID and the Government of the Republic of Yemen,
the mission’s education portfolio is valued at approximately $11.3 million, or 23 percent
of the total fiscal year (FY) 2010 portfolio, valued at about $48 million.

As the implementer, AED designed the BEST Project to focus on six main component
areas: (1) school renovations, (2) community participation, (3) training, (4) adult literacy,
(5) education management information systems, and (6) monitoring and evaluation.
During FY 2010, AED added a seventh component to address gender inequity. During
FYs 2009 and 2010, USAID/Yemen disbursed $4.4 and $6.7 million, respectively, for the
BEST Project.


1
  A Leader/Associate Award involves the issuance of an award that covers a specified worldwide
activity. The Leader Award includes language that allows a mission or other office to award a
separate grant to the Leader Award recipient without additional competition and which supports a
distinct local or regional activity that fits within the terms and scope of the Leader Award. This is
called an Associate Award.

                                                                                                   1
The Regional Inspector General/Cairo conducted this audit as part of its FY 2011 annual
audit plan. The audit was designed to answer the following question:

•   Are selected activities from USAID/Yemen’s Basic Education Support and Training
    (BEST) Project achieving its main goals to strengthen the capacity of schools to
    improve education for Yemen’s children and its children’s children?

The audit’s scope and methodology are described in Appendix I.

Although USAID/Yemen’s implementer has achieved some successes for the BEST
project, the mission is not on track to achieve its main goal to strengthen the capacity of
schools to improve education for Yemen’s children. The project sought to improve basic
education opportunities in 58 schools throughout the three governorates of Amran,
Hodeida, and Rayma (see Figure 1). Appendix V illustrates the baseline data for the
targeted schools, according to USAID/Yemen’s BEST Project Monitoring and Evaluation
Database.




Figure 1: The map of Yemen highlights the three focus governorates of the BEST Project
in Al Hudaydah (Hodeida), Raymah (Rayma), and Amran. Source: USAID/Yemen.

USAID/Yemen’s BEST Project sought to improve access to schools in Yemen by—

•   Providing selected schools with adequate engineering and architectural services
    during renovation of schools facilities or construction of new schools during
    FYs 2009 and 2010.

•   Building new school facilities (classrooms, multipurpose centers, latrines, etc.) to
    provide adequate services during FYs 2009 and 2010.

•   Restoring school buildings’ structural integrity by performing major renovations
    during FYs 2009 and 2010.



                                                                                         2
•   Restoring school facilities’ functional conditions with minor renovations in FY 2009.

•   Providing BEST schools/school councils with selective grants to demonstrate
    adequate plans for physical investment in primary education in FY 2009.

As previously mentioned, USAID/Yemen is not on track to reach targets designed to
achieve its main goal of strengthening the capacity of schools to improve education for
Yemen’s children. However, the implementer designed several activities to strengthen
the capacity of communities, schools, and the Ministry of Education to sustain
educational improvements for their children and their children’s children. Appendixes III
and IV include a complete list of FYs 2009 and 2010 work plan activities for the school
renovations component.




Figure 2: Before and after pictures of major renovation at Ahmad Al-Radad School, Zabid
District, Hodeida Governorate. Source: USAID/Yemen.

Delays in commencement of BEST Project activities and a planned new mission foreign
assistance strategy were factors in the implementer’s inability to achieve project goals.
Although the BEST Project was awarded to AED in September 2007, AED continued to
focus on completing activities for the Basic Education Project from September 2007 to
December 2009. It was not until July 2009 that the project was able to focus almost
completely on the activities under BEST Project. In addition, AED began teacher
training and parent workshop activities prior to beginning construction activities.

Another unanticipated setback was the notice of USAID/Yemen’s new “stabilization-
focused strategy” in December 2009. Mission officials had planned for the BEST Project
to be a 5-year, $20.3 million project. However, because of the new stabilization strategy,
the project’s funding was reduced to $17.4 million, with an end date of December 2011.
The reduction in funding and life of project caused AED to truncate the number of
activities originally planned to achieve project goals, such as construction of
multipurpose centers, and to shorten the community participation component.

The BEST Project work plan included 25 activities targeted for completion under the
school renovation component in 2009 and 20 activities in 2010 (see Appendix VI for a
detailed map of targeted school locations for the BEST Project). Although the BEST
Project targeted 58 schools for major and minor building renovations, AED completed
renovation work at only 17 schools. Because of budget cuts in 2010, the implementer
plans to complete only 4 out of 12 originally planned multipurpose centers.




                                                                                            3
In 2009, the implementer completed 7 of 25 activities under the school renovation
component, and partially completed other activities, including the following:

   •   Major renovation at 11 schools
   •   Minor renovation and repair of 705 student desks at seven schools
   •   Construction of classrooms at 11 schools
   •   Construction of latrines at 11 schools
   •   Construction of six privacy walls




Figure 3: Before and after pictures of major renovation at Al Eid Al-Fedhi School,
Al-Jabeen District, Rayma Governorate. Source: USAID/Yemen.

The implementer delayed 10 activities from its 2009 work plan and added the following
activities to its subsequent year’s work plan:

   •   Minor renovation and repair work for 10 schools
   •   Construction of six multipurpose centers
   •   Purchases of new furniture for six multipurpose centers
   •   Providing 20 schools with 500 new student desks
   •   Distributing small repair and maintenance kits to school community groups

As of September 30, 2010, the implementer completed or was on target to compete 13
of 20 school renovation activities planned for 2010, including the following:

   •   Request for proposals for engineering and renovation activities
   •   Construction of 63 new classrooms
   •   Construction of 36 new latrines
   •   Construction of 12 privacy walls
   •   Providing 47 schools with 500 new student desks
   •   Training on implementation of ecological sanitation-based latrines




                                                                                   4
Figure 4: Before and after pictures of major renovation at Abdu Mohamed Al-Mekhlafi
School, Zabid District, Hodeida Governorate. Source: USAID/Yemen.

AED has partially completed, or plans to transfer, 7 of 20 activities. The implementer
has partially completed (1) major renovation work in 6 schools, (2) repairing school
furniture in 22 schools, and (3) constructing four multipurpose centers. Because it has
not begun major renovation work in 15 schools, minor renovation work in 9 schools, and
provision of furniture for four new multipurpose centers in Hodeida and Rayma
governorates, staff plan to transfer these activities into the 2011 annual work plan.




Figure 5: Before and after pictures of major renovation at Al-Ershad School, Al-Zaidiah
District, Hodeida Governorate. Source: USAID/Yemen.

Despite the project’s successes, the audit concluded that USAID/Yemen should improve
several management controls related to program management and oversight. The audit
found that USAID/Yemen did not:

   •   Ensure that project funding was authorized (page 7).
   •   Ensure that property transfers were appropriate (page 8).
   •   Obtain approval for subawards (page 10).
   •   Ensure that source origin requirements were met (page 11).
   •   Review project documentation to ensure adequate monitoring (page 12).
   •   Ensure that environmental monitoring was conducted (page 13).

To address the findings, this audit recommends that USAID/Yemen:

   1) Seek the approval and ratification of any changes to its projects from the
      agreement office and legal advisor, and obtain the proper approvals prior to
      revisions of Basic Education Support and Training Project plans (page 8).



                                                                                     5
   2) Submit planned replacement needs to and request disposition instructions from
      the agreement officer for USAID-financed equipment in excess of $5,000 for
      which the recipient has no need (page 10).

   3) Require its implementer to provide a list of its proposed or pending subawards
      and contracting out of any work under the Basic Education Support and Training
      Project before hiring a subcontractor to begin work (page 10).

   4) Notify the agreement officer in writing of proposed or pending subawards and/or
      contracting out of any work under the Basic Education Support and Training
      Project before hiring a subcontractor to begin work (page 10).

   5) Request source origin waivers through the mission director or USAID agreement
      officer for Basic Education Support and Training Project goods and services
      when needed (page 11).

   6) Provide documented procedures on USAID’s antiterrorism measures to its
      implementers and establish and implement a schedule to periodically verify that
      procedures are followed (page 13).

   7) Develop an annual training plan for its agreement officer                   technical
      representatives and document annual course completion (page 13).

   8) Develop and implement a plan with steps to ensure that implementers meet
      reporting requirements listed in Initial Environmental Examinations and any other
      environmental documentation (page 14).

   9) Develop procedures on environmental compliance                that   outlines   roles,
      responsibilities, and expectations (page 14).

   10) Require that technical officers receive environmental compliance training (page 14).

USAID/Yemen agreed with 6 of the 10 audit recommendations. On the basis of
USAID/Yemen’s supporting documentation and planned action, RIG/Cairo considers that
final action has been taken on recommendations 3 and 4 and that management
decisions have been reached on recommendations 7, 8, 9, and 10.

Although the mission did not reach management decisions on recommendations 1, 2, 5,
and 6, RIG/Cairo requests that USAID/Yemen provide the Audit Performance and
Compliance Division with an action plan to address recommendations. An evaluation of
management comments is on page 15.

The audit scope and methodology are described in Appendix I and USAID/Yemen's
comments are included in their entirety in Appendix II (attachments excluded).




                                                                                          6
AUDIT FINDINGS
USAID/Yemen Did Not Ensure That
Project Funding Was Authorized
Title 22 Code of Federal Regulations (CFR) Part 226, Administration of Assistance
Awards to U.S. Non-Governmental Organizations, section 226.25, Revision of Budget
and Program Plans, requires award recipients 2 to report deviations from budget and
program plans, and request prior approvals for budget and program plan revisions.
Furthermore, Automated Directives System (ADS) 303.3.18(a), Unauthorized
Commitments, states that an unauthorized commitment occurs when a USAID official,
who does not have the authority to do so, acts in a way that leads a recipient acting in
good faith to believe that USAID has committed to revise an existing award program
description, or any of the terms and conditions of the award. Moreover, ADS
303.3.18(a) requires an agreement officer (AO) to obtain the cognizant General Counsel
or Regional Legal Advisor concurrence on a recommendation to ratify and recommend
payment for an unauthorized commitment. The guidance also requires the Director of
the Office of Acquisition and Assistance at USAID headquarters to ratify the
unauthorized commitment.

ADS 601.3.1, Appropriations Law, states that a fundamental principle of appropriations
law is that, except as otherwise provided by law, appropriations must be applied solely
for the purposes for which they are made. ADS 601, Funding Source Policy, further
states that it is the responsibility of the individual approving the commitment of funds to
ensure that the funding source used is correct and in accordance with the policy
directives in this ADS chapter.

During July 2008, USAID/Yemen agreed to commit funds that were not properly
authorized for the Basic Education Support and Training (BEST) Project. From May
2008 to December 2009, the BEST Project spent approximately $2.4 million to finish
school renovations and other activities that the Academy for Educational Development
(AED) planned during its predecessor Basic Education (BE) Project from July 2004. The
mission and the Department of Defense’s Military Civil Affairs (CA) team based in
Yemen agreed to complete some BE Project construction activities in the governorate of
Shabwah. In exchange, USAID/Yemen and AED officials agreed to purchase furniture
for some of the CA projects conducted throughout Yemen. Although AED purchased
and delivered the furniture, the CA team did not perform the school renovations,
expansion, or multipurpose room construction, as agreed.

Although the mission’s BE Project construction activities ended in July 2008,
USAID/Yemen’s Mission Director and the U.S. Ambassador (Chief of Mission) in July
2008 agreed to fulfill a promise to Yemeni community leaders in Shabwah to build two
schools and two multipurpose centers—9 months after USAID/Yemen and AED signed
the BEST cooperative agreement. Consequently, USAID/Yemen expended BEST
Project funds to complete BE Project construction activities that were not originally
included in the BEST Project work plan, to which AED officials attribute to the delay in
AED’s initiation of the BEST Project activities.

2
 As stated in Title 22 CFR 226.2, Definitions, a recipient is an organization receiving a grant or
cooperative agreement directly from USAID to carry out a project or program.

                                                                                                     7
According to an official in USAID/Washington’s Chief Financial Officer’s Letter of Credit
Unit, 3 the BEST implementer submitted requests for payments of funds and
disbursements to the Department of Health and Human Services (DHHS) electronically
without supporting documentation. DHHS makes payments on behalf of USAID and
retains supporting documentation for expenses paid for the BEST and BE Project
activities. In turn, DHHS transmits the data to USAID/Washington electronically for
processing into the Agency’s official accounting records.

USAID/Yemen did not obtain prior approval from its USAID/Egypt agreement officer
before revising the BEST Project’s plan to include CA activities. USAID/Yemen mission
officials stated that they were not aware of the required approval authorities needed to
ratify an unauthorized commitment. According to the agreement officer’s technical
representative (AOTR), some of the events regarding the agreement to build schools
were documented in a July 2008 email. In this email, mission officials stated that the
commitment of funds was appropriate to complete the BE Project construction activities
because the Ambassador concurred with the use of BEST Project funds to complete the
BE Project.

In this instance, the mission did not transact an unauthorized commitment since
historically both the BE and BEST Projects’ funding source was development assistance
funds used to promote education programs in Yemen. However, USAID/Yemen did not
elevate the matter to any regional USAID officials for concurrence.

Since the mission obligated approximately $17.4 million for the BEST Project,
USAID/Yemen inappropriately authorized approximately $2.4 million to complete BE
Project activities from a previous agreement. As a result, USAID/Yemen’s BEST Project
has incurred a budget shortfall that has negatively affected the implementer’s ability to
achieve activity targets. Consequently, the net result of these actions has reduced
required funding to meet established targets and the implementer’s ability to renovate
more schools and provide more training to teachers.

    Recommendation 1. We recommend that USAID/Yemen seek the approval and
    ratification of any changes to its projects from the agreement office and legal
    advisor, and obtain the proper approvals before revising Basic Education Support
    and Training Project plans.

USAID/Yemen Did Not Ensure That
Property Transfers Were Appropriate
The U.S. Government and its Federal agencies have documented specific guidance
regarding property use and disposal. Title 22 Code of Federal Regulations Part 226,
Administration of Assistance Awards to U.S. Non-Governmental Organizations, Section
226.34, Equipment, states when the recipient no longer needs equipment, the
equipment may be used for other activities in accordance with the following standards
for equipment with a current per unit fair market value of $5,000 or more:

3
  A letter of credit (LOC) is a form of advance payment to a nonprofit organization or public
international organization that a USAID agreement officer determined to be eligible. DHHS
processes USAID payments to LOC grantees as cash drawdowns and manages the liquidation of
advances (cash drawdowns) by requiring the grantees to submit the quarterly electronic Federal
Financial Report (SF-425) or to promptly refund the excess drawdowns to DHHS.

                                                                                            8
    •   A recipient may retain the equipment for other uses provided that compensation
        is made to the original federal awarding agency or its successor.

    •   If the recipient has no need for the USAID-financed equipment, the recipient shall
        request disposition instructions from the USAID AO.

    •   USAID shall determine whether equipment can be used to meet the Agency’s
        requirements.

    •   If there is no Agency need, USAID shall report the availability of the equipment to
        the General Services Administration to determine whether a requirement for the
        equipment exists in other Federal agencies.

In addition, the U.S. Government Accountability Office issued Standards for Internal
Control in the Federal Government (the Standards) in November 1999. One of the five
standards for internal control is information and communication. The Standards state
that information should be recorded and communicated to management and others
within the entity who need it, in a form and within a time frame that enables them to carry
out their internal control and other responsibilities.

In November 2008, USAID/Egypt’s AO approved the transfer of a project motor vehicle
valued at $17,000 to Yemen’s Ministry of Education (MOE). At the time of the transfer,
the USAID-owned vehicle had been used for the BE Project and was only 2 years old.
The agreement officer’s technical representative (AOTR) approved the transfer of the
vehicle without considering the vehicle for use in the BEST Project that was
implemented in September 2007. Moreover, the implementer purchased a replacement
vehicle valued at $48,000 for the BEST Project in June 2009, which the mission paid for.

According to USAID/Yemen officials, the MOE requested the transfer of one of the
vehicles used for the BE Project for use by the Deputy Minister of Education. The AOTR
and the mission director agreed that the MOE had been a strong proponent of the BEST
Project and that the transfer of one vehicle was not an excessive request. However, the
AOTR did not determine whether the vehicle could be used by other USAID/Yemen
projects before transferring it to the MOE. Rather, in November 2008 the implementer
requested that the vehicle be transferred to the MOE, and the AOTR did not request
disposition instructions from the AO or provide the AO with plans to purchase additional
vehicles for the BEST Project.

The prudent use of project resources to limit increased costs is a major responsibility for
USAID staff.      Moreover, approval officials should have the necessary relevant
information on disposals and replacement plans in order to make informed management
decisions. USAID/Yemen incurred additional project costs for a vehicle that was
comparable to the one transferred to the MOE and replaced the vehicle with two new
vehicles 7 months later at a cost of $69,300. When the mission transferred the vehicle
to the MOE, the vehicle had approximately 4 service years remaining (assuming a
depreciable life of 6 years 4 ). Consequently, the mission lost an opportunity to put funds


4
  Useful life of vehicle obtained from ADS 536.3.7(e), Replacement of USAID Vehicles – Age and
Mileage Standards. Vehicle types and minimum replacement factors are as follows: for trucks
less than 12,500 pounds gross vehicle weight rating, 6 years.

                                                                                             9
to better use for programmatic purposes. Accordingly, the audit makes the following
recommendation:

   Recommendation 2. We recommend that USAID/Yemen submit planned
   replacement needs to and request disposition instructions from the agreement
   officer for USAID-financed equipment in excess of $5,000 for which the recipient
   has no need.

USAID/Yemen Did Not Obtain
Approval for Subawards
22 CFR Part 226, Administration of Assistance Awards to U.S. Non-Governmental
Organizations, Section 226.25(c)(8), states that for nonconstruction awards the recipient
shall request prior approvals from the USAID agreement officer for the subaward,
transfer, or contracting out of any work under an award.

To perform major and minor renovation construction for the BEST Project, AED
employed 22 construction subcontractors during 2009 and 2010. The audit judgmentally
sampled 13 invoices from 11 subcontractors that AED paid more than $50,000 in a
single invoice. USAID/Yemen had not obtained AO approval for any work performed by
these 11 subcontractors under 13 invoices. Moreover, local AED officials noted that its
headquarters staff in Washington, DC, approved the subcontractors. However, mission
officials did not obtain approval from the USAID agreement officer, as required.

Although it was part of its management oversight responsibilities, USAID/Yemen was not
aware of the USAID/Egypt’s AO’s responsibility to approve a subaward, transfer, or
contracting out of any work under the award. In fact, mission officials had not provided
any guidance to the project’s AOTR about this responsibility until the audit identified the
issue.

The USAID AO’s legal responsibilities for an award stipulate that the officer can take
action on behalf of USAID to enter into, change, or terminate an award. As part of that
responsibility, the agreement officer represents the U.S. Government through the
exercise of delegated authority to enter into, administer, and terminate contracts and
make related determinations and findings. Furthermore, the AO is responsible for
ensuring that awards are not made to suspended or debarred parties. Unless mission
officials and implementers provide subcontractor information to the AO for review and
approval, USAID/Yemen cannot ensure that it has not provided funding to suspended or
debarred parties.

   Recommendation 3.         We recommend that USAID/Yemen require its
   implementer to provide a list of its proposed or pending subawards and
   contracting out of any work under the Basic Education Support and Training
   Project before the implementer hires a subcontractor to begin work.

   Recommendation 4. We recommend that USAID/Yemen notify the agreement
   officer in writing of its proposed or pending subawards and contracting out of any
   work under the Basic Education Support and Training Project before the
   implementer hires a subcontractor to begin work.




                                                                                        10
USAID/Yemen Did Not Ensure
That Source Origin
Requirements Were Met
USAID/Yemen’s Basic Education Support and Training (BEST) Project’s Cooperative
Agreement (Number 279-A-00-07-00092-00), Schedule A.8, documents the United
States of America as the authorized geographic code for the procurement of goods and
services under the award. Furthermore, ADS 310, Source, Origin, and Nationality of
Commodities, requires that the goods and services financed by USAID meet the
requirements of the Foreign Assistance Act (the Act) and provide benefit to the U.S.
economy as well as fulfilling the needs of the foreign assistance program. Similarly,
Section 604 of the Act states that funds made available for assistance under this Act
may be used in any other country, but only if the provision of such assistance requires
commodities or services of a type that are not produced in and available for purchase in
the United States, the recipient country, or developing countries. As a remedy, ADS
310.5.5 states that USAID may expand the authorized geographic code only using an
approved waiver.

During 2008 and 2009, the BEST Project paid approximately $37,000 in lodging, meals,
and travel expenses for 16 participants to attend two training sessions hosted in a
country other than the United States or Yemen. Specifically, in June 2008 and
December 2009, BEST provided an Education Management Information Systems
workshop and Sustainability and Education workshop in Cairo, Egypt. The AOTR did
not request a waiver of geographic code for a workshop and a training course before
AED used BEST Project funds to pay the participants to attend training in a geographic
code that was not approved by appropriate mission officials.

USAID/Yemen’s AOTR for the BEST Project stated that staff had not been
knowledgeable about the training costs paid with BEST Project funds for participants to
attend training in countries other than the United States or Yemen. Moreover, the official
had not been aware of the need for a waiver approval of the geographic code to receive
training services outside of the United States or Yemen.

USAID/Yemen cannot be assured that goods and services financed by USAID meet the
requirements of the Foreign Assistance Act and provide benefit to the U.S. economy as
well as fulfilling the needs of the foreign assistance program. The mission should make
every reasonable effort to strike a delicate balance to ensure that benefits are provided
to the U.S. economy while fulfilling the needs of the foreign assistance program. If it is
not possible to create this balance, the mission must ensure that it approves or obtains
the appropriate waivers.

   Recommendation 5. We recommend that USAID/Yemen request source origin
   waivers through the mission director or appropriate USAID agreement officer for
   Basic Education Support and Training Project goods and services when needed.




                                                                                       11
USAID/Yemen Did Not Review
Project Documentation to
Ensure Adequate Monitoring
USAID provides guidance to staff regarding management controls for monitoring and
evaluating an implementer’s performance under USAID awards. ADS 303.2.f, Primary
Responsibilities, requires the AOTR to ensure that USAID exercises prudent
management over its awarded assistance by monitoring and evaluating the recipient and
its performance during the award. Moreover, the AOTR designation letter for the BEST
Project states that the AOTR is responsible for monitoring the recipient’s progress in
achieving the objectives and for verifying that the recipient’s activities being funded by
USAID conform to the terms and conditions of the award.

In addition, ADS 596.3.1, Establishing Internal Controls, requires USAID managers to
develop internal control activities to help ensure that management directives are carried
out. The control activities must be effective and efficient in accomplishing the Agency’s
control objectives and include the establishment and review of performance measures
and indicators and appropriate documentation for internal control.

Moreover, Cooperative Agreement Number 279-A-00-07-00092-00 for the BEST Project
requires the implementer to be responsible for complying with Executive Order 13224,
Blocking Property and Prohibiting Transactions With Persons Who Commit, Threaten To
Commit, or Support Terrorism.

USAID/Yemen did not adequately monitor the BEST Project during FYs 2009 and 2010
in reviewing and verifying performance measures and indicators and documentation
regarding significant events such as conducting antiterrorism measures that could
negatively affect the BEST Project. Although the AOTR stated that a review of AED’s
quarterly reports was a primary means of monitoring the project, the staff did not review
documented project information to provide mission management with timely information
to ensure that project activities were achieved efficiently and effectively or were on track
to meet mission goals.

Reviewing and Verifying Performance Measures and Indicators – The AOTR did not
review baseline data collected by the implementer’s monitoring and evaluation
component that documented student attendance in the targeted schools of the project.
As one of the project indicators, AED planned to measure the increase in student
attendance resulting from conducting teacher training, renovating school buildings, and
constructing multipurpose centers. However, the AOTR was not aware that in 2009, the
implementer reduced targets for several school renovation activities listed in the annual
work plan.

Antiterrorism Measures Not Conducted for Some Subcontractors – The AOTR did
not review an internal audit report of the BEST Project in Yemen that internal auditors
issued to AED in June 2009. Although the implementer reported in its quarterly report
dated January 2009 that an internal audit was conducted from November 22 through 26,
2008, the AOTR did not follow up or request, and AED did not provide, a copy of the
final report to the mission. The final report noted critical information about the
implementer’s noncompliance with Executive Order 13224 on Terrorist Financing and
the implementer’s need to improve antiterrorism vetting. Specifically, internal auditors
found that AED:

                                                                                         12
   •   Did not perform antiterrorism checks for field office employees.
   •   Did not maintain antiterrorism screen prints in personnel files.
   •   Did not perform antiterrorism background checks for 12 vendors during a review
       of 45 purchases.

AED, in its management response to the finding, stated that it would conduct
antiterrorism checks annually on all vendors and employees who receive more than
$500. The audit team judgmentally selected 22 of 44 AED employees, 40 of 334
consultants, and 30 of 139 vendors. For the selected sample, the audit team verified
that AED performed antiterrorism checks, noting no exceptions.

USAID/Yemen’s AOTR stated that the mission had not been aware of these two major
issues. First, mission officials were not aware that the implementer modified the project
work plan targets for the school renovation component in 2009. Second, the AOTR was
not aware of the issuance of AED’s internal audit report in 2009 because the AOTR did
not adequately review AED’s quarterly reports. USAID/Yemen staff believes that
increased support and guidance from the Procurement Office of its Regional Support
Mission at USAID/Egypt would be beneficial to ensure that appropriate actions are taken
regarding BEST Project transactions.

Since management controls include the establishment and review of performance
measures, indicators, and appropriate documentation for internal control, managers rely
on staff to perform control activities in a timely manner. Baseline data and audit reports
provide fundamental information needed to assess project progress, history, and
potential impediments. A lack of awareness about vital information such as revised work
plans and the implementer’s noncompliance with laws, regulations, and guidance can
hamper mission management decisions and negatively affect the mission’s project.

   Recommendation 6. We recommend that USAID/Yemen provide documented
   procedures on USAID’s antiterrorism measures to its implementers and establish
   and implement a schedule to periodically verify that procedures are followed.

   Recommendation 7. We recommend that USAID/Yemen develop an annual
   training plan for its agreement officer’s technical representatives and document
   annual course completion.

USAID/Yemen Did Not Ensure
That Environmental Monitoring
Was Conducted
22 CFR 216, Environmental Procedures, describes the environmental procedures that
USAID must follow on all its programs, projects, and activities. ADS 204, Environmental
Procedures, requires USAID to ensure that the requirements of 22 CFR 216 are
included in project design and implementation. Specifically, ADS 204.2.c, Primary
Responsibilities, states that assistance objective teams, activity managers, and technical
representatives are responsible for ensuring full compliance with 22 CFR 216.

An environmental review begins with an Initial Environmental Examination (IEE) of the
reasonably foreseeable effects of a proposed action on the environment. Environmental
conditions listed in the BEST Project’s IEE include protection of air, surface soils/waters,

                                                                                         13
and groundwater from wastewater contamination. They also include the development of
an environmental screening and review process to identify and mitigate adverse
environmental impacts, and a requirement for strategic objective teams to actively
monitor ongoing activities for compliance with approved IEE recommendations and to
ensure adequate monitoring and reporting by a USAID contractor.

As required by the IEE, a USAID implementer’s annual and progress reports must
contain a brief update on mitigation and monitoring measures being implemented,
results of environmental monitoring, and mitigation and monitoring procedures.

USAID/Yemen did not ensure adequate environmental monitoring and reporting by the
implementer of activities performed under the project’s school renovation component.
Small-scale work performed included the addition of classrooms, buildings, and privacy
walls to schools, as well as new latrines and related sanitary wastewater systems.
Although the implementer included some environmental testing and considerations in its
technical specifications and contracts with engineering firms, such as soil erosion testing
and requirements related to sewage plumbing, the implementer stated that it did not
receive any guidance from USAID regarding environmentally sound design, monitoring,
or reporting and was unaware of any such requirements.

Although the BEST Project’s AOTR attended training to learn about planning and
management of USAID awards in 2006, the AOTR was unaware of the AOTR’s
responsibilities related to the IEE and has never received training on environmental
compliance.

Because security restrictions often hamper the ability of USAID/Yemen staff to perform
site visits, it is imperative that the implementer conduct and report on its environmental
monitoring to USAID/Yemen officials.           Monitoring environmental compliance of
contractors in construction activities allows USAID/Yemen to reduce its vulnerabilities to
environmental concerns that may exist at project sites or could arise during project
implementation. Improperly monitored renovation work, such as the installation of
latrines and sanitary wastewater systems, can have an adverse impact on human health
and the environment, including contamination of surface water and groundwater.
Accordingly, the audit makes the following recommendation:

   Recommendation 8.       We recommend that USAID/Yemen develop and
   implement a plan with steps to ensure that implementers meet reporting
   requirements listed in Initial Environmental Examinations and any other
   environmental documentation.

   Recommendation 9. We recommend that USAID/Yemen develop procedures
   on environmental compliance that outlines roles, responsibilities, and
   expectations.

   Recommendation 10. We recommend that USAID/Yemen require that technical
   officers receive environmental compliance training.




                                                                                        14
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Yemen’s comments and planned actions are partially responsive to the report
recommendations. USAID/Yemen mission officials generally agreed with 6 of 10
recommendations. On the basis of USAID/Yemen’s supporting documentation and
planned action, RIG/Cairo considers that final action has been taken on
recommendations 3 and 4 and that management decisions have been reached on
recommendations 7, 8, 9, and 10. Management decisions have not been reached on
recommendations 1, 2, 5, and 6.

Regarding recommendation 1, mission officials did not agree with the recommendation
to seek the approval and ratification of any changes to its projects from the agreement
office and legal advisor, and obtain the proper approvals before revising Basic Education
Support and Training (BEST) Project plans. USAID/Yemen officials used project work
plans to add predecessor Basic Education (BE) Project activities instead of adhering to
USAID guidance to seek the approval/ratification from the agreement office and legal
advisor before revising BEST Project plans. Although the BEST cooperative agreement
did not list specific schools for activity implementation, the agreement stipulated that
projects would be extended from the two governorates of the BE Project to the (South)
Amran, Hodeida, and Rayma governorates. However in July 2008, USAID/Yemen
entered into an agreement with DOD Civil Affairs to work on two schools in Shabwah
governorate where the predecessor BE program had operated. Although USAID/Yemen
implemented the BEST Project in the (South) Amran, Hodeida, and Rayma
governorates, the mission did not provide options for or discuss continuing work in the
BE governorates of (North) Amran, Mareb and Shabwah with funding authorized for the
BEST Project. Accordingly, the net result of these actions reduced required funding to
meet established targets and circumvented USAID guidance for proper approval
authorities. Therefore, RIG/Cairo does not consider that a management decision has
been reached and requests that USAID/Yemen provide the Audit Performance and
Compliance Division with an action plan to address this recommendation.

In response to recommendation 2, mission officials did not agree with the
recommendation to submit planned replacement needs to and request disposition
instructions from the agreement officer for USAID-financed equipment in excess of
$5,000 for which the recipient has no need. Although the Code of Federal Regulations
requires USAID to report the availability of some equipment no longer needed by the
Agency, USAID/Yemen believed that title to project vehicles rested with the BEST
implementer. As a fiduciary responsibility, USAID/Yemen officials must ensure that
disposals of USAID-financed equipment and planned replacement needs are warranted
and financially prudent to minimize additional programmatic and project costs.
Therefore, RIG/Cairo does not consider that a management decision has been reached
and requests that USAID/Yemen provide the Audit Performance and Compliance
Division with an action plan to address this recommendation.

Regarding recommendation 3, USAID/Yemen agreed to require its implementer to
provide a list of its proposed or pending subawards and contracts under the Basic
Education Support and Training Project before the implementer hires a subcontractor to


                                                                                      15
begin work. During audit fieldwork on November 1, 2010, mission officials notified the
Academy for Educational Development (AED) to inform the AOTR of selected contract
bidders and submit a final list of proposed or pending subawards for review and approval
prior to award by the implementer. Therefore, RIG/Cairo considers that final action has
been taken to address this recommendation.

To address recommendation 4, USAID/Yemen agreed to notify the agreement officer in
writing of its proposed or pending subawards and contracts under the Basic Education
Support and Training Project before the implementer hires a subcontractor to begin
work. During audit fieldwork on November 1, 2010, mission officials notified AED, to
submit a final list of proposed or pending subawards for review and approval by the
agreement officer prior to award by the implementer. Therefore, RIG/Cairo considers
that final action has been taken to address this recommendation.

Regarding recommendation 5, although USAID/Yemen did not consider two training
sessions conducted in Egypt that were funded by the BEST Project to violate source
origin requirements, USAID guidance requires approved waivers to be issued when
needed commodities or services of a type are not produced in and available for
purchase in the United States, the recipient country, or developing countries.
Consequently, RIG/Cairo does not consider that a management decision has been
reached and requests that USAID/Yemen provide the Audit Performance and
Compliance Division with an action plan to address this recommendation.

In response to recommendation 6, USAID/Yemen did not agree with the
recommendation to provide documented procedures on USAID’s antiterrorism measures
to its implementers or to establish and implement a schedule to periodically verify that
procedures are followed. As a prudent management practice for required management
oversight over its awards, monitoring and evaluating an implementer’s contractual
requirements on terrorist financing is a primary responsibility. Consequently, RIG/Cairo
does not consider that a management decision has been reached and requests that
USAID/Yemen provide the Audit Performance and Compliance Division with an action
plan to address this recommendation.

To address recommendation 7, USAID/Yemen plans to complete a Mission Order on
training by March 31, 2011. The mission plans to use the order as guidance to ensure
that mission staff receive mandatory and professional development training that will
include continuing COTR/AOTR education. As a result, RIG/Cairo considers that a
management decision has been reached on this recommendation.

To address recommendations 8, 9, and 10, during fieldwork in December 2010,
USAID/Yemen implemented procedures to (1) review all programs to ensure
environmental monitoring and compliances are in place according to the approved Initial
Environmental Examinations for each project; (2) ensure that environmental monitoring
is conducted by USAID technical staff and by the Yemen Monitoring and Evaluation
Project as part of project implementation and work planning; (3) make environmental
compliance training available to USAID technical staff as part of their program
management responsibilities, including refresher training for staff who have previously
completed compliance training; and (4) review compliance with these procedures and
document findings during the biannual mission-wide performance management reviews.
Accordingly, RIG/Cairo considers that a management decision has been reached on this
recommendation.


                                                                                     16
                                                                             Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Cairo conducted this performance audit in accordance
with generally accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

The audit objective was to determine whether USAID/Yemen was achieving its goals
and objectives to strengthen the capacity of schools to improve education for Yemen’s
children and its children’s children. Audit fieldwork was conducted at USAID/Yemen
from October 16 to November 3, 2010. The audit covered the period from October 1,
2008, to September 30, 2010. The amount awarded for the project was approximately
$20.3 million for the 5-year period from September 30, 2007, to December 31, 2012. On
June 22, 2010, USAID/Yemen modified the project agreement, reducing the award
amount to approximately $17.4 million and reducing the life of the project by 1 year,
resulting in a new closing date of December 31, 2011. The audit team tested
approximately $10.4 million, or 88 percent, of about $11.7 million that was disbursed to
the Academy for Educational Development, the implementing partner, as of
September 30, 2010.

In planning and performing the audit, we assessed management controls related to
documentation and data verification, reporting, supervisory and management review at
the functional and activity level, physical control over vulnerable assets, and
establishment and review of performance measures and indicators. The audit team also
reviewed the management controls in place to monitor project activities. We conducted
the review through interviews with the mission staff and implementer, observations, and
review of reports and files that the mission provided as part of its project monitoring
activities. Specifically, we obtained an understanding of and evaluated USAID/Yemen’s
Basic Education Support and Training Project’s associate cooperative agreement with
the Academy for Educational Development; subsequent modifications to the agreement;
the mission’s performance management plans; the annual work plans prepared by the
Academy for Educational Development; the mission’s fiscal year (FY) 2010 Federal
Managers’ Financial Integrity Act assessment; the oversight performed by the
agreement officer’s technical representative; performance measures; and data quality
assessments.

We conducted the audit at USAID/Yemen in Sana’a, and visited implementing partner
and Government of Yemen’s Ministry of Education in Sana’a.

Methodology
To answer the audit objective, we met with personnel from USAID/Yemen, the Academy
for Educational Development, Government of the Republic of Yemen officials, and
beneficiaries.  We reviewed documentation provided by USAID/Yemen and the



                                                                                     17
                                                                              Appendix I


Academy for Educational Development, including the performance management plans,
annual work plans, monitoring and evaluation plan reports, the associate cooperative
agreement, and subsequent modifications. We also reviewed progress reports and site
visit reports.

To assess whether the goals and objectives of the project were achieved, we focused on
the school renovation component area, which received the majority of funding for
FYs 2010 and 2009. The school renovation component area had 25 activities for
FY 2009 and 20 activities for FY 2010, and we reviewed all target indicators and
achievements for both fiscal years. The school renovations component comprised
84 percent, or $5.1 million, and 76 percent, or $4.3 million, for FY 2009 and FY 2010
estimated costs, respectively. Thus, the audit team focused on the school renovations
component.

We validated reported results using numerous techniques to review the School
Renovation, Training and Monitoring, and Evaluation component areas that included
(1) tracing mission-reported results to documented results and records (e.g., attendance
sheets, implementer invoices compared to disbursements, and progress reports) at the
offices of the implementing partner, (2) attending a training workshop for headmasters of
schools, and (3) interviewing mission personnel, implementing partners, and
Government of the Republic of Yemen officials. In addition, we also reviewed
supervisory review and the level of monitoring conducted by the agreement officer’s
technical representative and USAID/Yemen by reviewing site visit reports, and data
quality assessments.

Furthermore, we reviewed applicable laws and regulations and USAID policies and
procedures regarding USAID/Yemen’s Basic Education Support and Training Project,
including the associate cooperative agreement and modifications with the Academy for
Educational Development; Automated Directives System chapters 303 (Grants and
Cooperative Agreements to Non-Governmental Organizations), 310 (Source, Origin, and
Nationality of Commodities), 591 (Financial Audits of USAID Contractors, Recipients,
and Host Government Entities), and 596 (Management’s Responsibility for Internal
Control); and Title 22 Code of Federal Regulations Part 216 – Environmental
Compliance Procedures, and Part 226 – Administration of Assistance Awards to U.S.
Non-Governmental Organizations.




                                                                                      18
                                                                            Appendix II



MANAGEMENT COMMENTS

MEMORANDUM
UNCLASSIFIED

To:           Jacqueline Bell, Regional Inspector General

From:         Jeffrey Ashley, Mission Director

Date:         January 16, 2011

Subject:      Mission Management Response to Inspector General Audit Report No. 6-
              279-11-00X-P of USAID Assistance for the Basic Education Support and
              Training (BEST) Project in Yemen dated December 28, 2010


Thank you for sending the draft report of the Regional Inspector General’s audit of
USAID/Yemen’s Basic Education Support & Training (BEST) Project. This letter conveys
our response to the 10 recommendations made by the audit.

Recommendation 1: We recommend that USAID/Yemen seek the approval/ratification
from the agreement office and legal advisor, and obtain the proper approvals before
revising Basic Education Support and Training Project plans.

In terms of the 2008 and 2009 Basic Education Support and Training (BEST) project
work plans, USAID/Yemen followed the procedures required for approval/ratification of
these documents by the Agreement Officer’s Technical Representative (AOTR). These
documents do not require any approval/ratification from the Agreement Office (AO) and
Legal Advisor (LA). The BEST program description/cooperative agreement intentionally
did not list any schools or number of schools specifically as part of its efforts on the
grounds that the schools were to be identified subsequent to award or during the work
planning process, as is normal in USAID program implementation and work planning
processes. BEST had no expectation of what schools would be renovated/constructed
at the outset of the project. The schools were identified by USAID and BEST in the
following ways (in the cooperative agreement, it is referred to as the "data collection"
phase): (i) schools previously not completed by the previous USAID-funded Basic
Education (BE) project, of which AED was a sub, (ii) needs assessments completed with
the Ministry of Education and other donors, and (iii) other, including Joint Task Force-
Horn Of Africa (JTF-HOA)-assisted schools. Between June and November 2008,
USAID, JTF-HOA, and the American Ambassador to Yemen discussed the possibility of
BEST assuming responsibilities for the two stalled Shabwah school construction projects
funded by JTF-HOA. The final decision to include the two schools under BEST was
made and communicated to BEST Chief of Party (COP) on November 4, 2008, and
subsequently accepted by the COP (see Attachments 1, 2, and 3). Subsequent to the



                                                                                     19
                                                                             Appendix II


identification of the two Shabwah schools as part of the 58 overall schools, USAID
received a draft work plan on December 31, 2008 and approved it on January 6, 2009
(see Attachment 4). Further, the cooperative agreement states that, in addition to the
four governorates noted, BEST will continue work in governorates/districts that were part
of EQUIP 1 (the previous project) (see Attachments 5 & 6). This part of the agreement
covered the Shabwah schools as Shabwah was a target governorate under EQUIP 1
implementation.

In view of the above, the Mission does not concur with Recommendation 1 and believes
that the relevant evidence addresses Recommendation 1 and constitutes final action;
therefore, we request closure of the recommendation upon final report issuance.

Recommendation 2: We recommend that USAID/Yemen submit planned replacement
needs to and request disposition instructions from the agreement officer for USAID-
financed equipment in excess of $5,000 for which the recipient has no need.

It is standard operating procedure for the implementing partner to have a property
control system that addresses replacement, accounting and final disposition of property
as required of the implementing partner standard clause TITLE TO AND CARE OF
PROPERTY (COOPERATING COUNTRY TITLE) (NOVEMBER 1985). To request
further procedures and requirements of the Mission and implementing partners than
what is the current USAID practice creates unnecessary burdens and obligations.

Furthermore, USAID/Yemen believes the correct disposition procedures were followed,
per the disposition concurrence letter from the AO dated November 23, 2008
(Attachment 7). As noted in Article 7 of the BEST cooperative agreement, title rests with
the recipient, thus AED sought AO concurrence for the disposition of the motor vehicle in
a 11/19/08 letter. The Mission feels that AED, not the AOTR, was responsible for
receiving approval from the AO for the disposition, which it did in a 11/23/08 email
approval from the AO (see Attachment 7).

The decision to provide one of the Basic Education (BE) vehicles to the Ministry of
Education (MOE) was based on ongoing discussions between the Ministry, USAID, and
the BE project. As a result of these discussions, the MOE requested to receive one
vehicle from the closing BE project. USAID/Yemen made the recommendation and the
AO approved transfer of the majority of the equipment to the new BEST project and to
give only one vehicle to MOE. This decision was facilitated by the fact the vehicle given
to the MOE was 3 years old at the time and it was determined it was more cost effective
to turn the vehicle over to the MOE and allow BEST to procure a new vehicle (per their
budget) rather than support maintenance expenses for an older vehicle.

In view of the above, the Mission does not concur with Recommendation 2 and believes
that measures taken by the Mission as described above address Recommendation 2;
therefore, we request closure of the recommendation upon final report issuance.

Recommendation 3: We recommend that USAID/Yemen require its implementer to
provide a list of its proposed or pending subawards and contracting out of any work
under the Basic Education Support and Training Project before the implementer hires a
subcontractor to begin work.

Recommendation 4: We recommend that USAID/Yemen notify the agreement officer in


                                                                                      20
                                                                                Appendix II


writing of its proposed or pending subawards and contracting out of any work under the
Basic Education Support and Training Project before the implementer hires a
subcontractor to begin work.

Regarding recommendations 3 and 4, the RIG finding notes that 22 CFR 226.25(c)(8)
applies.   However, this provision applies to non-construction awards, and the
subcontracts in question are for construction work. As a result, it has been unclear to
project managers what approval is needed for construction subawards under a
cooperative agreement. While USAID/Yemen acknowledges that there are no specific
subcontractors identified in the award and, as such, regulation requires approval by the
Agreement Officer, it is the Mission’s position that the responsibility for submittal of the
approval under a cooperative agreement lies with the awardee, AED, not the AOTR.

Therefore, while the AO did not provide prior approval of the subawards not listed in the
cooperative agreement, details of the subawards were listed in the work plans approved
and monitored by the AOTR. If the intent of the finding is to ensure that the AO was
aware of the various sub-contracts and their purpose, this was satisfied through the
process highlighted herein. If, however, the intent of the finding is to somehow vet
Yemeni construction subcontractors through the AO, the cooperative agreement terms
and conditions specifically highlight that the responsibility lies with the implementer.
Paragraph 8 of the Standard Provisions "Debarment Suspension" of the agreement
places the responsibility on the partner to not knowingly enter into a subagreement with
an entity or person on the excluded list unless authorized by the AO.

In view of the above but highlighting the unclear nature of regulations guiding
cooperative agreements, the Mission agrees with recommendations 3 and 4. As such
the AOTR sent to the AO the existing construction subcontracts for vetting in November
2010. Furthermore, the AOTR has requested the implementer submit a final list of
proposed or pending subawards for review and approval by the AO prior to award by
AED (see Attachments 8 & 9). As a result of these two actions, we request closure of
the recommendation upon final report issuance.

Recommendation 5: We recommend that USAID/Yemen request source origin waivers
through the Mission Director or appropriate USAID Agreement Officer for Basic
Education Support and Training Project goods and services when needed.

ADS 253.3.5 allows training in third countries, whether Egypt or another country,
(provided the third country is not unfriendly to the U.S. or a terrorist state) without need
for a source/origin waiver. USAID views hotel accommodations, conference room
rentals, and any directly provided meals and travel costs in the third country that can
only be acquired at the venue of the training similar to or akin to the local procurement
exception of 22 CFR 228.40(f)(6), rather than direct services or goods financed by
USAID for program implementation. The source/origin rules apply to commodities and
services financed directly by USAID for program implementation. Furthermore, USAID
interprets that payment of per diem and travel cost of the participants are subject neither
to source/origin waiver requirements nor to the Geographic Code 000, as the
participants were from Yemen.

As a result, USAID/Yemen believes that the two USAID-funded trainings in question in
2008 and 2009 were not subject to source/origin requirements. The training in 2008 was
funded by BEST and implemented by the American Institute for Research (AIR), not


                                                                                         21
                                                                              Appendix II


directly by USAID, and no source/origin waiver was required. The training in 2009 was
funded by BEST and implemented by BEST and, again, no source/origin waiver was
required (see Attachment 10).

Regarding source/origin/nationality waivers in general, USAID/Yemen practices standard
operating procedures when source/origin/nationality waivers for goods and services to
be procured from outside the authorized Geographic Code are required. When
necessary, waivers are requested by the implementing partner in conjunction with the
AOTR, reviewed by the Legal Advisor and Agreement Officer, and approved by the
Mission Director.

The Mission does not concur with Recommendation 5 and believes that relevant
evidence as presented addresses Recommendation 5 and constitutes final action;
therefore, we request closure of the recommendation upon final report issuance.

Recommendation 6:       We recommend that USAID/Yemen provide documented
procedures on USAID’s antiterrorism measures to its implementers and establish and
implement a schedule to periodically verify that procedures are followed.

AED agreed to the terrorist financing certification as outlined in Article 11 of the
cooperative agreement, and, under a cooperative agreement it is therefore the
responsibility of AED rather than the AOTR to ensure compliance. While the AOTR
must convey the anti-terrorism measures to the partner, the implementation is the
ultimate responsibility of the partner.

In view of the above information, the Mission does not concur with Recommendation 6
as the responsibility for compliance with anti-terrorism provisions in the cooperative
agreement is the responsibility of AED; therefore, we request closure of the
recommendation upon final report issuance.

Recommendation 7: We recommend that USAID/Yemen develop an annual training plan
for its agreement officer’s technical representatives and document annual course
completion.

The Mission is in concurrence and cites its intent to ensure training requirements for all
staff are met. While the State Department’s annual performance appraisal system,
which is the guiding human resources system for Locally Engaged Staff (LES), requires
annual training requirements, the Mission acknowledges the absence of a more detailed
training plan. As such, the Mission agrees with Recommendation 7. The Management
Decision regarding this recommendation is to complete a Mission Order on training by
March 31, 2011. The Mission Order will ensure that all Mission staff, regardless of hiring
category and grade, receive mandatory and professional development trainings,
including appropriate continuing COTR/AOTR education once guidance is issued from
OAA.

Recommendation 8: We recommend that USAID/Yemen develop and implement a plan
with steps to ensure that implementers meet reporting requirements listed in Initial
Environmental Examinations (IEE) and any other environmental documentation.

Recommendation 9: We recommend that USAID/Yemen develop procedures on
environmental compliance that outlines roles, responsibilities, and expectations.


                                                                                       22
                                                                              Appendix II



Recommendation 10: We recommend that USAID/Yemen require that technical officers
receive environmental compliance training.

USAID/Yemen believes that these findings are appropriate given the details identified in
the report. It is important to note that the cooperative agreement does not mention the
IEE, and AED was not aware or under an obligation to conduct environmental mitigation
measure or monitoring.          In view of the above, the Mission concurs with
Recommendations 8, 9, and 10 and has initiated actions described below, which seek to
implement these three recommendations. The actions are as follows:
    1. Review all programs to ensure environmental monitoring and compliances are in
       place according to the approved IEEs for each project;
    2. Ensure environmental monitoring is conducted by USAID technical staff and by
       the Yemen Monitoring and Evaluation Project (YMEP) as part of project
       implementation and work planning;
    3. Make environmental compliance training available to USAID technical staff as
       part of their program management responsibilities, including refresher training for
       staff who have previously completed compliance training; and
    4. Review compliance with these procedures and document findings during the bi-
       annual Mission-wide performance management reviews.

The initiation of these measures began in December 2010 and constitutes final action on
Recommendations 8, 9, and 10; therefore, we request closure of the recommendation
upon final report issuance.




                                                                                       23
                                                                                      Appendix III


 USAID/Yemen’s Basic Education Support and Training (BEST)
Project’s 2009 Annual Work Plan School Renovation Component
            Activities for January to December 2009

         Activity / Event name                  Target         Completed            Status
          School Renovation
                                                                              Partially
 Major renovation work for 30 schools             30                0
                                                                              completed †
 Minor renovation and repair for                                              Partially
                                                  30                7
 3,000 student desks in 30 schools                                            completed †
                                                                              Not       Started,
 Minor renovation and repair for                                              Moved to 2010
                                                  10                0
 10 schools                                                                   Annual      Work
                                                                              Plan (AWP)
                                                                              Not       Started,
 Construction of the multipurpose
                                                   6                0         Moved to 2010
 centers at 6 main cluster schools
                                                                              AWP
 Construction of 60 new classrooms                                            Partially
                                                  30                0
 at 30 schools                                                                completed †
 Construction of 120 new latrines at                                          Partially
                                                  30                0
 30 schools                                                                   completed †
 Construction of new security/privacy                                         Partially
                                                  14                6
 walls                                                                        completed †
                                                                              Not       Started,
 Providing 6 multipurpose centers with
                                                   6                0         Moved to 2010
 new furniture
                                                                              AWP
                                                                              Not       Started,
 Providing 30 schools with 500 new
                                                  30                0         Moved to 2010
 student desks
                                                                              AWP
                                                To be                         Not    Started,
 Providing school maintenance
                                              determined            0         Moved to 2010
 committee with financial support
                                                (TBD)                         AWP
                                                                              Not    Started,
 Distributing small repair and
                                                  60                0         Moved to 2011
 maintenance tools kits
                                                                              AWP
 Structural Assessment for (60) schools
                                                                              Partially
 in Amran, Rayma and Hodeida                      60                26
                                                                              completed †
 Governorates
 Requests for proposals (RFPs) for
                                                  30                23        Completed ∗
 doing major renovation for 30 schools




† Partially completed activities were identified as those whose actual results were lower than the
original work plan targets. Some of these activities were transferred to the 2010 work plan, and
others had their targets reduced without USAID approval in 2009.

∗ Requests for proposals were issued for only those schools that were deemed appropriate for
renovation work after a structural assessment; in 2009, only 23 schools met the assessment
requirements.


                                                                                                24
                                                                         Appendix III


Activity / Event name                        Target   Completed        Status

          School Renovation
RFP for engineering monitoring of
                                              30         23       Completed *
renovation work in 30 schools
Monitoring of renovation work in 30                               Partially
                                              30          0
schools                                                           completed †
Monitoring the construction of the                                Not       Started,
multipurpose centers at 6 main cluster         6          0       Moved to 2010
schools                                                           AWP
Upgrading and updating the existing
architectural design of the multipurpose      11         12       Completed
centers
RFP for preparation the structural
design of the new upgraded
multipurpose centers’ architectural           11         12       Completed
design, including specifications, bills of
quantities, and the cost estimate
RFP for building the multipurpose
                                               6          6       Completed
centers at 6 main cluster schools
RFP for monitoring the construction of
the multipurpose centers at 6 main             6          6       Completed
cluster schools
Assessment of the physical conditions
                                                                  Partially
of the existing student desks in 60           60         26
                                                                  completed †
schools
External training and study trip for key
                                              TBD         1       Completed
staffs of MOE on school design
External training and case study trip on
                                                                  Not    Started,
implementation ecological sanitation-
                                              TBD         0       Moved to 2010
based latrines (participants are the key
                                                                  AWP
staffs of MOE)
Basic repair and maintenance                                      Not    Started,
workshop for the schools maintenance          60          0       Moved to 2011
committees                                                        AWP
Exchange experience internal trip for                             Not    Started,
school maintenance committee and              60          0       Moved to 2011
students                                                          AWP




                                                                                   25
                                                                                     Appendix IV


 USAID/Yemen’s BEST Project’s 2010 Annual Work Plan School
  Renovation Component Activities as of September 30, 2010
                                   Target       Target as per
  Activity / Event name          before the     the amended         Completed          Status
                                new strategy      AWP 2010
    School Renovation
 Structural assessment for
                                    32                32                32         Completed
 32 schools
 RFP for doing major
                                    12                12                12         Completed
 renovation for 12 schools
 RFP for engineering
 monitoring of renovation           12                12                12         Completed
 work in 12 schools
 RFP for redesign of the
 structure of the
 multipurpose community
 center (MPC) based on
 the new modified                   12                 4                 4         Completed
 architectural design,
 including specifications,
 bills of quantities, and the
 cost estimate
 RFP for building the
                                    12                 4                 4         Completed
 MPCs
 RFP for monitoring the
                                    12                 4                 4         Completed
 construction of the MPCs
                                                                                   On target for
 RFP for doing major
                                    24                24                 0         completion in
 renovation for 24 schools
                                                                                   2010
 RFP for engineering                                                               On target for
 monitoring of renovation           24                24                 0         completion in
 work in 24 schools                                                                2010
 Monitoring of renovation                                                          Partially
                                    30                30                17
 work in 30 schools                                                                completed †
 Monitoring the                                                                    Partially
                                    12                 4                 0
 construction of the MPCs                                                          completed †
 External training and case
 study trip on
 implementation of                                                                 On target for
 ecological sanitation-              1                 1                 0         completion in
 based latrines                                                                    2010
 (participants are the key
 staffs of MOE)
                                                                                   Partially
 Construction of the MPCs           12                 4                 0
                                                                                   completed †




† Partially completed activities identified as those whose actual results were lower than the
original work plan targets, or those activities started in 2010 but not completed. These activities
were then transferred to the 2011 work plan.


                                                                                                 26
                                                                         Appendix IV



                               Target      Target as per
 Activity / Event name       before the    the amended     Completed      Status
                            new strategy     AWP 2010
  School Renovation
                                                                       On target for
Construction of new
                                63              63            43       completion in
classrooms
                                                                       2010
                                                                       On target for
Construction of new
                                36              36            26       completion in
latrines at 36 schools
                                                                       2010
                                                                       On target for
Construction of new
                                12              12             6       completion in
security/privacy walls
                                                                       2010
Provide furniture for the
                                12              4              0       Not Started
new MPCs
                                                                       On target for
Provide 47 schools with
                                500            500             0       completion in
500 new student desks
                                                                       2010
Major renovation work in                                               Partially
                                30              30            17
30 schools                                                             completed †
Furniture repair at                                                    Partially
                               2000            2000           770
22 schools                                                             completed †
Minor renovations in
                                 9              9              0       Not Started
9 schools




                                                                                     27
                                                 Appendix V


USAID/Yemen’s BEST Project Baseline Data for 2007–2008




                                                         28
                                                     Appendix VI


Detailed Map of Targeted School Locations for the BEST Project




                                                             29
                                                        Appendix VII


                               List of Acronyms


ADS    Automated Directives System

AED    Academy for Educational Development

AO     agreement officer

AOTR   agreement officer's technical representative

BE     Basic Education

BEST   Basic Education Support and Training

CA     Department of Defense's Military Civil Affairs

CFR    Code of Federal Regulations

DHHS   Department of Health and Human Services

FY     fiscal year

IEE    Initial Environmental Examination

MOE    Ministry of Education

MPC    Multipurpose Community Center




                                                                 30
U.S. Agency for International Development
        Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
             Tel: 202-712-1150
             Fax: 202-216-3047
            www.usaid.gov/oig


                                            31
